No.
IN THE

Supreme Court of the United States
ROBERT PHILLIP IVERS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE EIGHTH CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33 and the April 15 Order of this Court,
I, Brett D. Kelley, an attorney appointed to represent petitioner under the Criminal
Justice Act, 18 U.S.C. ยง 3006A, hereby certify that the accompanying Petition for a
Writ of Certiorari is less than 40 pages and contains 6,844 words, excluding parts of
the document that are exempted by Supreme Court Rule 33.
Executed on February 18, 2021.

BRETT D. KELLEY
CJA Counsel for Petitioner
KELLEY, WOLTER & SCOTT, P.A.
Centre Village Offices
Suite 2530
431 South Seventh Street
Minneapolis, MN 55415
Tel: (612) 371-9090
Fax: (612) 371-0574
bkelley@kelleywolter.com

